NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL



                SECURITY OF
           THE NCUA DATA CENTER


             Report # OIG-13-08
               August 12, 2013




                 James Hagen
               Inspector General




             W. Marvin Stith, CISA
               Senior IT Auditor
                              Table of Contents


Section                                              Page



          EXECUTIVE SUMMARY                          1

          BACKGROUND                                 2

          OBJECTIVE, SCOPE AND METHODOLOGY           4

          RESULTS IN DETAIL                          5

          APPENDIX

               A. NCUA Management Comments           11




                        SENSITIVE BUT UNCLASSIFIED
                                     i
Security of the NCUA Data Center
OIG-13-08


Executive Summary

We conducted an audit to determine whether NCUA has adequate controls in place to
protect computer systems and data in the           data center (data center) and in
the                                                computer rooms (computer
rooms).

To accomplish this audit, we conducted fieldwork at NCUA’s
                   , the disaster recovery data center in                  ,
                                                                   . We interviewed
management and staff from the NCUA Office of the Chief Information Officer (OCIO);
Division of Procurement and Facilities Management (DPFM); and AMAC. We reviewed
NCUA documentation pertaining to the security of NCUA applications and data. We
also reviewed National Institutes of Standards and Technology policy and procedure
publications.

We determined that overall the NCUA has controls in place to protect the computer
systems and data hosted in its data center and in its computer rooms. However, NCUA
could make improvements to more adequately control or monitor access to the data
center’s server room and control access to the computer rooms: Specifically, NCUA
needs to:

    -                                                                    ;

    -                                                                            ;

    -

    -                                                                        .

We made four recommendations where NCUA could make improvements to better
protect access to its mission critical applications and data. NCUA agreed with all our
recommendations. NCUA also indicated that in addition to OCIO and AMAC working
together to address the security issues, the Office of the Chief Financial Officer will
help address recommendations 1 , 2, and 4. We have included NCUA’s comments in
their entirety at Appendix A. We appreciate the courtesies and cooperation NCUA
management and staff provided to us during this audit.




                                   SENSITIVE BUT UNCLASSIFIED
                                                1
Security of the NCUA Data Center
OIG-13-08


Background

Information Technology (IT) operations are a crucial aspect of most organizational
operations, and agencies rely on their information systems for their operations. One of
the main concerns is business continuity. If a system becomes unavailable, agency
operations may be impaired or stopped completely. It is necessary to provide a reliable
and secure infrastructure for IT operations, in order to minimize any chance of
disruption.

Data centers run organizations. The role of a data center includes generating revenue,
storing sensitive data, and providing business-critical services. Because of their
criticality and value, they are targets. A data center has to offer a secure environment,
which minimizes the chances of a security breach. Therefore, a data center must keep
high standards for assuring the integrity and functionality of its hosted computer
environment. A secure environment that minimizes the chance of a security breach and
unauthorized access to an agency’s information systems would help protect sensitive
data and mitigate intentional disruption of business-critical services.

While threats to an agency’s computer systems and data can come from insiders or
outsiders, insiders have a significant advantage over others who might want to harm the
agency. Agencies implement security mechanisms such as electronic building access
systems primarily to defend against external threats. However, insiders are not only
aware of their organization’s policies, procedures, and technology, but they are often
also aware of their vulnerabilities.

NCUA hosts the following systems that are critical to NCUA’s mission:

       GSS (General Support System): Provides agency-wide network and computing
        infrastructure and is the computing platform for all major NCUA business
        applications.

       AIRES (Automated Integrated Regulatory Examination System): Enables NCUA
        and state examiners to review and validate financial data related to the
        operations of federally insured credit unions (FICUs) and some state-chartered,
        non-federally insured credit unions (NFICUs).

       ODCS (Call Reporting System): The primary means by which NCUA collects,
        validates stores and reports financial and operational data for all FICUs and
        some state-chartered NFICUs.

       IIS (Insurance Information System): Enables NCUA and member credit unions to
        update, submit, track and manage credit union master information.



                                   SENSITIVE BUT UNCLASSIFIED
                                                2
Security of the NCUA Data Center
OIG-13-08


       ALMS (Asset Liquidation Management System): Provides the computing
        platform for the accounting of credit unions involved in the process of liquidation
        and all major business applications of AMAC.




                                   SENSITIVE BUT UNCLASSIFIED
                                                3
Security of the NCUA Data Center
OIG-13-08


Objective, Scope and Methodology

The objective of this audit was to determine whether NCUA has adequate controls in
place to protect computer systems and data in the             data center and in the
                                            computer rooms.

To accomplish this audit, we conducted fieldwork at NCUA’s
                   , the disaster recovery center in                  , and the
                                                            . We interviewed
management and staff from the NCUA Office of the Chief Information Officer (OCIO);
Division of Procurement and Facilities Management (DPFM); and AMAC. We reviewed
NCUA documentation pertaining to the security of NCUA applications and data. We
also reviewed National Institutes of Standards and Technology policy and procedure
publications.

We conducted this review from April 2013 through August 2013 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. During this audit, we used
                                                                               1
access authorization lists and access history logs generated from the            system.
We did not test the automated internal controls of this system. We relied on interviews
and what we learned about the operation of and NCUA’s manual controls associated
with this system.




1
       operates and manages security systems for its clients.

                                   SENSITIVE BUT UNCLASSIFIED
                                                4
Security of the NCUA Data Center
OIG-13-08


Results in Detail

We determined that overall the NCUA has controls in place to protect the computer
systems and data hosted in its              data center (data center) and
computer rooms (computer rooms). However, the NCUA could make improvements to
more adequately control or monitor access to the data center and control access to the
computer rooms: Specifically, NCUA needs to:

    -                                                                           ;

    -                                                                                   ;

    -   Log visitor access to the data center; and

    -                                                                               .

NCUA Data Center Structure and Access

The following rooms comprise the              data center:

               Systems Office – an administrative office area;

       Server room - houses the servers hosting             applications and data;

       Development lab -                                                                   ;

       File room -                                                     ; and

       Storage room -                            .




                                   SENSITIVE BUT UNCLASSIFIED
                                                5
Security of the NCUA Data Center
OIG-13-08



                                                  .

We recognize that the data center has a layer of physical security
                                                         . However, this configuration is
unconventional from a security control perspective in that


        . Consequently, this configuration presents a peculiar and unnecessary point of
weakness within the data center’s layered security that could potentially facilitate
unauthorized access into the server room. This could allow access to the servers
containing NCUA applications and data and disruption of NCUA operations.

Recommendation 2:

                                      .


Management Response:

We agree
                                    . OCIO is already scheduled to meet with the
Data Center Manager and will develop a plan                               by
December 2014.

OIG Response:

We concur with management’s planned actions.


NCUA Needs to Improve Visitor Access Control to the Data Center

NCUA has not consistently logged visitor access to the data center. In addition,
NCUA’s security policy for logging visitors into the data center is inconsistent with the
method we observed NCUA has used for logging visitors.

OCIO keeps its visitor sign-in log
      . However, there is evidence that OCIO does not consistently use the log.
Specifically, we reviewed the log and determined it included entries from June 2005
through May 2013:

       There are 119 entries between September 2005 and October 2010 - an average
        of approximately two visits per month;



                                   SENSITIVE BUT UNCLASSIFIED
                                                8
Security of the NCUA Data Center
OIG-13-08


        There are 14 entries between January 2011 and November 2012 - approximately
         only one visit every two months;

        There was no entry on September 19, 2012 when contractors visited the data
         center as part of the 2012 FISMA review;4

        The OIG visit on May 17, 2013 - for a tour of the data center as part of this audit -
         was the first entry in the log since November 2012.

In addition, OCIO management and staff were not aware of the active use of a visitor
log - they did not object to a finding during the 2012 FISMA review that indicated “NCUA
does not maintain a log at the entrance of the data center to record data center visitors.”

Furthermore, NCUA changed its security policy to reflect its intended new visitor logging
procedure as follows: “The Data Center Manager is responsible for ensuring that
physical access to the Data Center is logged into the System’s Division Calendar
located in SharePoint.” However, the Director, Division of IT Operations, who has
overall responsibility for the data center indicated OCIO does not use SharePoint for
logging visitors into the data center.

Without adequate logging of visitors, an accurate audit trail would be more difficult to
reconstruct in the event of an incident within the data center.


Recommendation 3: We recommend NCUA review, document, and implement current
policy and procedures for logging visitor access to the data center.


Management Response:

We agree and will have OCIO work with the Data Center Manager to ensure
compliance effective immediately.


OIG Response:

We concur with management’s planned actions.




4
  We did not pursue whether or not there were other visitors to the data center during the period covered by the
visitor’s log that OCIO staff should have logged.

                                    SENSITIVE BUT UNCLASSIFIED
                                                 9
Security of the NCUA Data Center
OIG-13-08


NCUA Needs to Improve Security of                 Computer Rooms

The physical structures of the two computer rooms could allow for unauthorized access
to the servers containing AMAC applications and data.




          .




                                                                            .
Consequently, a determined individual could gain access to the AMAC servers and
disrupt AMAC operations.

Recommendation 4:

                    .


Management Response:

We agree that                                                       . OCIO met
with AMAC to discuss the Data Center in late July. OCIO and AMAC will work
together                                     installed by December 2014.


OIG Response:

We concur with management’s planned actions.




                                   SENSITIVE BUT UNCLASSIFIED
                                               10
Security of the NCUA Data Center
OIG-13-08


Appendix A - NCUA Management Comments




                                   SENSITIVE BUT UNCLASSIFIED
                                               11
Security of the NCUA Data Center
OIG-13-08




                                   SENSITIVE BUT UNCLASSIFIED
                                               12
